U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




        International Trade Administration

 Generally Sound Operations at Commercial
           Service Greece Are Compromised
                         by Key Weaknesses

   Final Inspection Report No. IPE-15804/September 2003




                            PUBLIC
                            RELEASE



                            Office of Inspector General

U.S. Department of Commerce                                                                                 Final Report IPE-15804

Office of Inspector General                                                                                         September 2003



                                                  TABLE OF CONTENTS


EXECUTIVE SUMMARY .............................................................................................................. i


INTRODUCTION..........................................................................................................................1


OBJECTIVES, SCOPE, AND METHODOLOGY.........................................................................1


BACKGROUND............................................................................................................................3


OBSERVATIONS AND CONCLUSIONS ...................................................................................6


I. 	 Post Management is Generally Sound, but Could Be Enhanced..................................................6

     A. 	 Gaps in management oversight allowed an FSN to skirt controls and procedures...............6

     B.	 Advocacy program is strong, but better coordination is needed .........................................7

     C.	 Safety concern needs to be addressed ............................................................................10


II.	 Most CS Greece Clients are Satisfied, but Timeliness of Services, Market Research Production, 

     and Export Success Reporting Need Improvement..................................................................12

     A. 	 Delivery of some products and services is untimely .........................................................13

     B. 	 Market research reporting appears suitable, but production may be low..........................15

     C.	 Export success reporting has increased significantly, but accuracy and management oversight 

          are needed.....................................................................................................................18


III. 	 Financial and Administrative Operations Are Generally in Good Order, With One Minor Exception

            30

       A.	 Two official vehicles should be reassigned or surplused ...................................................31


RECOMMENDATIONS..............................................................................................................33


APPENDIXES
A: Acronyms and Descriptions of Commercial Service Products and Services................................35

B: Agency Comments on Draft Report...........................................................................................36

C: Security Issues (Limited Distribution).........................................................................................41

U.S. Department of Commerce                                                                    Final Report IPE-15804

Office of Inspector General                                                                            September 2003



                                            EXECUTIVE SUMMARY


Greece, located in southern Europe between Albania and Turkey, is an import-dependent country of
10.6 million residents. U.S. exports totaled $1.15 billion in FY 2002—a mere 4.5 percent share of
Greece’s import market. One reported reason for this small market share is that Greece is a member of
the European Union, and European companies offer stiff competition to U.S. firms.

Aircraft, arms, and machinery are the top U.S. exports to Greece. However, opportunities in other
sectors are emerging. Greece will host the 2004 Summer Olympic Games, and many American
companies are identifying new opportunities and making investments that will keep them in the Greek
market even after the Games have concluded. Economic restructuring is spawning still more
opportunities, as banks, the telephone monopoly, the national Olympic Airways, and other public sector
concerns privatize, and workers shift from agriculture to the service sector. For example, a well-known
U.S. coffee shop chain opened its first store in Greece in September 2002, and it is already one of the
busiest stores in all of Europe.

The Commercial Service (CS) post in Greece has a very active advocacy program and a full menu of
trade events to assist firms seeking to tap the Greek market. The post ranks 31st in terms of investment
of Commercial Service dollars, with an FY 2002 budget of $1.14 million. The CS Greece office is
located in Athens (the capital) and until February 2002, it also had a presence in Northern Greece (in
the city of Thessaloniki).

We inspected CS Greece operations at the request of the U.S. ambassador, who became concerned
about post operations because of problems associated with services provided to a U.S. firm entering
the Greek market. The ambassador wanted assurance that appropriate procedures and controls were
in place to prevent similar problems from recurring. We conducted an on-site inspection between
February 24 and March 6, 2003, at which time the post employed two American officers and seven
FSNs. Our specific findings are as follows:

Post Management Is Generally Sound, but Could Be Enhanced. CS Greece has many positive
attributes, including a senior commercial officer (SCO) and staff who were praised by embassy
colleagues, clients, and multipliers1 alike for their cooperation and responsiveness.

The post could, however, benefit from improvements in a few areas. For one, despite the presence of
appropriate controls and procedures to prevent problems such as the one that led the ambassador to
request our review, there were gaps in management oversight of CS Greece operations that undercut
the efficacy of the controls and procedures. Second, the post needs to improve its coordination with
the International Trade Administration’s Advocacy Center to ensure that the Commercial Service, the

1
    Multipliers are groups that work to expand U.S. trade and business interests in foreign markets.
                                                             i
U.S. Department of Commerce                                                       Final Report IPE-15804

Office of Inspector General                                                               September 2003



ambassador, and the rest of the U.S. mission—when assisting U.S. companies seeking contracts in
Greece—do not appear to be giving favored or preferential treatment to any one company. Third, the
post needs to address a safety concern involving poorly maintained and located fire extinguishers (see
page 6).

Overwhelmingly, the CS Greece Clients We Interviewed are Satisfied, but Timeliness of
Services, Market Research Production, and Export Success Reporting Need Improvement. We
found that most CS Greece clients were pleased with the post’s services and products. And the
relationship between CS Greece and the American-Hellenic Chamber of Commerce—Greece’s key
multiplier—is the strongest it has been in years, largely because of the collaborative environment fostered
by the SCO. Even so, our review revealed that certain core products and services were not delivered in
a timely manner and the post’s reporting on market developments was less frequent than that of similarly
sized CS operations. In addition, CS Greece has overstated the value of its export successes—the
Commercial Service’s key performance measure. Our review of 57 selected export successes submitted
in 2002 and 2003 revealed 17 instances in which the post either overstated the value of the success,
reported “anticipated” rather than actual sales, or took credit for a success that it was not involved in or
that did not occur. As a result, we found that—at a minimum—CS Greece had inflated the value of its
export successes reported for this period by more than $118 million, or over 47 percent of the total
export success value in our sample (see page 12).

Financial and Administrative Operations are Generally in Good Order, With One Minor
Exception. CS Greece’s financial and administrative operations are well run. We reviewed
collections, inventory, time and attendance, petty cash, procurements, representation funds, and the
budget, and found them all to be properly managed. We also followed up on the financial and
administrative issues reported in an April 2002 management and program review of CS Greece,
conducted by the Commercial Service’s Office of Planning, and noted that the post had implemented
the reviewers’ recommendations and corrected identified weaknesses. We found just one minor issue:
the post does not appear to need all of its four vehicles and should either reassign or surplus two of
them (see page 30).

On page 33, we offer recommendations to address our concerns.




The Commercial Service concurred with all of our recommendations. Specifically, the Acting Assistant
Secretary and Director General of the U.S. and Foreign Commercial Service’s response to our draft
report stated that “the attached audit action plan succinctly indicates the specific measures that
US&FCS has undertaken to comply with OIG’s 14 recommendations.”
The plan outlines many specific actions that have already been taken to strengthen the Commercial

                                                    ii
U.S. Department of Commerce                                                     Final Report IPE-15804

Office of Inspector General                                                             September 2003



Service’s oversight of its operations in Greece. We discuss some of these specific changes and the
Commercial Service’s response to our recommendations following each section in this report.




                                                  iii
U.S. Department of Commerce                                                        Final Report IPE-15804

Office of Inspector General                                                                September 2003



                                               INTRODUCTION

Pursuant to the Inspector General Act of 1978, as amended, and the Omnibus Trade and
Competitiveness Act of 1988, the Commerce OIG periodically evaluates the operations of the
Commercial Service (CS).2 Under these authorities and in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency, we conducted an inspection
of CS Greece.

Inspections are designed to provide agency managers with timely information about operations. By
asking questions, identifying problems, and suggesting solutions, the OIG helps managers determine how
best to quickly address identified issues, and thereby encourages effective, economical, and efficient
operations. Inspections are also used to identify or prevent fraud, waste, and abuse in federal
programs, and to highlight effective programs or operations, particularly when their success may be
replicable elsewhere.

We performed our fieldwork for this inspection from January 6 to May 15, 2003, visiting the post from
February 24 to March 6. During the review and at its conclusion, we discussed our findings with the
ambassador and senior commercial officer (SCO) in Athens, as well as with the regional director for
Europe and the deputy assistant secretary for international operations at CS headquarters. We briefed
the former CS director general and the now acting director general on March 27, 2003.

                            OBJECTIVES, SCOPE, AND METHODOLOGY

Our purpose was to assess the effectiveness of management, program, and financial and administrative
operations of CS Greece, including its development and achievement of goals and objectives, the
economy and efficiency of its operation, and its compliance with applicable regulations and other
managerial guidance. We also examined the post’s coordination with other organizations in achieving
the overall goals of the International Trade Administration and the Department of Commerce.
Specifically, we sought to determine whether CS Greece

       �   plans, organizes, and controls its work and resources effectively and efficiently;
       �   operates effectively, meets the needs of U.S. exporters, and helps increase exports and market
           access; and
       �   has appropriate internal controls and financial management practices.

We also endeavored to
   � identify best practices and innovations that could be useful to other CS posts and operations;
   � assess CS Greece's role and participation in trade compliance efforts; and

2
    CS is also known as the U.S. and Foreign Commercial Service (US&FCS).
                                                         1

U.S. Department of Commerce                                                         Final Report IPE-15804

Office of Inspector General                                                                 September 2003





    �   evaluate infrastructure issues at the post, including information technology, security, and other
        facilities-related matters.

To accomplish our goals, we reviewed the Commercial Service’s strategies and plans for increasing
exports to Greece, as well as the post’s organizational structure and its methods of conducting activities.
 We interviewed appropriate Commerce and State Department personnel, and other U.S. agency
representatives involved in trade promotion. We surveyed via phone and e-mail a sample of clients
regarding their satisfaction with the post’s products and services, spoke with officials from U.S. and
foreign firms and trade associations, and examined pertinent files and records relating to the post’s
financial, administrative, and other operations.




                                                     2

U.S. Department of Commerce                                                             Final Report IPE-15804

Office of Inspector General                                                                     September 2003



                                             BACKGROUND


                              Greece, the world’s 32nd largest economy, has a population of
                              approximately 10.6 million. Located in southern Europe, between
                              Albania and Turkey, Greece is a member of the European Union (EU)
                              and a participant in the EU's Economic and Monetary Union. Having
                              reduced its budget deficits and inflation, Greece adopted the euro as its
                              currency on January 1, 2002, a move that is expected to boost trade,
stimulate production, and help dismantle any lingering market barriers within the EU.

Greece has a mixed capitalist economy. The public sector accounts for half of the gross national income
(GNI); tourism, for 15 percent. Service industries make up the largest and fastest growing sector.
Major economic challenges include reducing unemployment, furthering economic restructuring,
reforming social security, overhauling the tax system, and minimizing bureaucratic inefficiencies.3

Greece is a parliamentary democracy, currently led by Prime
Minister Costas Simitis, who has been in office since 1996.
The president’s role is largely ceremonial. The next national
elections must be held by spring 2004. Greece is a member                         Key Statistics
of the North Atlantic Treaty Organization (NATO).4                                    2002
                                                                       GNI (2001)                $124.6 Bil.
Greek Trade and Investment                                             GNI Per Capita (2001)     $11,780
                                                                       U.S. Exports              $1.152 Bil.
Greece is the 51st largest export market for the United States.        U.S. Imports              $546 Mil
                                                                       Population                10.6 Mil.
 Bilateral trade between the two countries was just under
                                                                       Unemployment              10.4%
$1.7 billion in 2002. U.S. exports totaled nearly $1.2 billion,        GNI Growth                3.5% (est.)
while Greek imports to the United States totaled $546                  Total Area                131,940
million.5 Top U.S. exports to Greece remain defense                                               Sq. Km.
products and related items. However, American business
activity is expected to grow in information technology, tourism infrastructure, medicine, power, the
environment, and franchising. Additional opportunities will emerge from the ongoing privatization of
public sector companies, including banks, the telephone monopoly, and the national Olympic Airways.

U.S. companies have invested more than $1 billion in Greece since 2001. While Greece has a relatively

3
  World Factbook 2002 - Greece, CIA, page 7. 

4
  Background Note: Greece, U.S. Department of State, page 5.

5
  U.S. Census Bureau, U.S. Trade Balance With Greece, see www.census.gov/foreign-trade/balance, accessed June 

13, 2003.

                                                       3

U.S. Department of Commerce                                                               Final Report IPE-15804

Office of Inspector General                                                                       September 2003



open investment environment, transparency of laws and regulations is problematic. Foreign companies
often encounter multiple laws covering the same issue, and have difficulty knowing which law is
applicable. Foreign investors complain about frequent changes in tax policies, and some tax laws are
considered discriminatory because they favor Greek firms.6

Commercial Service Operations in Greece

The Commercial Service’s post in Greece is its 31st largest, in terms of dollars. Its fiscal year 2002
budget was approximately $1.14 million, which covered staff salaries (American officers and Foreign
Service Nationals), International Cooperative Administrative Support Services (ICASS) costs, office
and residential leases, and direct program support. The CS post is located in the capital of Athens, and
has a staff of two officers and seven FSNs. A small presence in the northern Greek city of Thessaloniki
ended in February 2002 when the officer assigned there rotated to another post, and the Commercial
Service decided against filling the vacancy. CS Greece is organized under the Office of International
Operations’ (OIO) Europe region and a regional director, located in Washington, oversees the
management of the post.

Measuring Post Performance

The Commercial Service uses an Overseas Resource Allocation Model (ORAM) and a cost-benefit
model to evaluate each post’s performance. The ORAM takes into account many quantitative factors
such as mission requirements, workload, market share and barriers, and per capita gross domestic
product. It ranks the CS posts based on where they would be expected to perform. Then, a country
cost-benefit ratio is calculated, which takes into account the benefits (i.e., export successes) divided by
the variable costs of operating the post. This ratio is calculated using a three-year rolling average. For
ease of analysis, CS divides the posts into five groups, or quintiles, according to their cost-benefit ratio,
with the first quintile containing the best performers. CS Greece ranked in the second quintile for fiscal
year 2002, which was one quintile higher than expected under the ORAM. However, as noted
beginning on page 18 of this report, many of CS Greece’s export successes were overstated. Once
adjustments are made to correct the data factored into the cost-benefit model, the post’s performance
may not fare as well.

Management Performance Review

The Commercial Service’s Office of Planning conducted a Management Performance Review (MPR) of
CS Greece from April 8-12, 2002. An MPR is a means for CS senior managers to review and
reestablish program direction, identify and adopt systemic management and program improvements, and
provide assurance that the organization is operating efficiently and effectively. MPRs evaluate program

6
    Country Commercial Guide for Greece FY 2003, CS Market Research Reports, pages 33-34 and 37.
                                                          4

U.S. Department of Commerce                                                    Final Report IPE-15804

Office of Inspector General                                                            September 2003



operations, management and staffing, and fiscal and administrative issues, and provide recommendations
for improvement. The MPR team reviewing Greece identified many issues that required attention, and
we followed up on these issues during our evaluation to determine whether the Commercial Service had
implemented the team’s recommendations. We determined that CS Greece and Commercial Service
headquarters had taken the recommended corrective actions. We should also note that it is not
common practice for the OIG to conduct a post inspection so soon after the post has been the subject
of an MPR. However, we did so in Greece due to the special request of the ambassador.




                                                  5

U.S. Department of Commerce                                                        Final Report IPE-15804

Office of Inspector General                                                                September 2003



export successes at post—a situation that will likely continue because the post is very busy helping U.S.
firms compete for lucrative defense and Olympics-related awards. In our conversations with CS
Greece’s embassy colleagues, U.S. companies, and the American-Hellenic Chamber of Commerce, the
SCO and his staff were roundly praised for fighting tirelessly for the interests of U.S. firms. The SCO
was also singled out for being extremely effective in providing fair and balanced advocacy assistance.
Further, CS Greece, the Office of Defense Cooperation, the embassy’s Political/Military section, the
defense attaché, and the ambassador work as a cohesive team to secure American wins in the important
defense sector. The one area of weakness we identified was post coordination with the International
Trade Administration’s Advocacy Center in Washington, and the consequent risk to the Commercial
Service and the U.S. mission to Greece should they assist ineligible firms.

The Advocacy Center, established in 1993, helps ensure that U.S. products and services have the best
possible chance of selling abroad. The center promulgates U.S government (USG) advocacy
guidelines, which help government personnel determine whether and to what extent their support is
appropriate for a transaction involving U.S. interests. Requests for such support come from companies
or individuals interested in a specific commercial opportunity overseas, typically a tender sponsored by
a foreign government. Requestors must fill out an advocacy questionnaire attesting to the U.S. content
in their bid, and an antibribery agreement certifying that they have not bribed foreign officials in
connection with the matter for which they are seeking U.S. government support, nor will they do so in
the future. Generally, if a bid contains at least 50 percent U.S. content, advocacy is presumed to be in
our national interest. Without the benefit of a completed questionnaire, the Commercial Service and
American embassies may inadvertently advocate for a company whose proposal does not best
represent U.S. interests or may miss the opportunity to advocate for a company whose bid is highly
advantageous.

The Commercial Service’s Operations Manual states that posts must conduct “advocacy efforts as
specified by the USG Advocacy guidelines,” which require submission of the two forms. These
guidelines were last transmitted to overseas posts in an October 2000 cable and are available on the
Advocacy Center’s web site. However, we found that CS Greece sometimes provides advocacy
assistance to individuals and firms that have not filed a completed advocacy questionnaire and
antibribery agreement with the center, as well as cases in which assistance was denied because the
forms were filed too late and lacked the information the center needed to determine whether assistance
was warranted.

One example of this latter problem is especially illustrative: Beginning in the spring and into the summer
of 2002, various companies interested in competing for the lucrative security contract for the 2004
Olympic Games sought and received assistance from the Commercial Service and the American
embassy in Athens to determine whether they would bid and which other companies they might partner
with to form a successful consortium. When the tender for the contract was issued in September 2002,

                                                    8

U.S. Department of Commerce                                                       Final Report IPE-15804

Office of Inspector General                                                               September 2003



two viable consortia had emerged, each led by a U.S. firm. CS Greece and the embassy should have
required the two consortia leaders to file an advocacy questionnaire and antibribery agreement at this
time. The SCO told us that his policy is to have companies file the documents once they begin
competing for a specific tender. And, in early October 2002, CS
Greece did fax the advocacy questionnaire and antibribery agreement to the two U.S. firms. However,
the forms were never returned and the post did not follow up.

During the fall and into the winter of 2003, competition between the two companies was extremely
heated. Representatives of both firms regularly visited the embassy and sought assistance from the
deputy chief of missionand the SCO. The embassy provided generic assistance and was careful to
avoid treating either company preferentially.

Toward the end of the bidding process, in late January 2003, one of the companies filed an advocacy
questionnaire directly with the Advocacy Center, and requested quick assistance because the Greek
government was purportedly close to selecting a bid. The center, during its due diligence process,
learned from CS Greece staff that the second U.S. company was also bidding on the tender. It asked
this company to file a questionnaire, and the company complied. Unfortunately, neither firm provided
the Advocacy Center with reliable figures on the amount of U.S. content in its bid, and there was no
time to assemble this information. Unable to determine whether either bid was in the U.S. national
interest, the center declined to provide assistance. If the post had required the companies to submit the
forms in October 2002, and had provided those forms to the Advocacy Center at that time, there
should have been sufficient time to obtain reliable figures and thus decide whether advocacy assistance
was warranted.

In reviewing the post’s advocacy reports, we found several other examples of advocacy cases being
worked by CS Greece that involve a specific tender, but for which the Advocacy Center has not been
provided with the advocacy questionnaire and anti-bribery agreement. The biggest problem with not
having an advocacy questionnaire on file is that the post or embassy could be advocating for a company
that does not meet the necessary requirements. Per the October 2000 cable providing posts with
guidance on implementing the advocacy guidelines, submitting the questionnaires allows the Advocacy
Center to “. . . ensure that USG advocacy falls within the U.S. national interest, adheres to USG policy,
and that U.S. firms are treated fairly in the provision of USG advocacy support.” Finally, in discussions
with the Director of the Advocacy Center, he stated that he was concerned that this problem might be
occurring in other Commercial Service posts because commercial officers may not all be well versed in
the advocacy guidelines. He felt that it would be extremely helpful to review, revise, and reissue the
October 2000 cable.

Recommendations. The Commercial Service, together with the Advocacy Center, should review the
October 2000 cable on implementing the advocacy guidelines, ensuring that the information contained in

                                                    9

U.S. Department of Commerce                                                                 Final Report IPE-15804

Office of Inspector General                                                                         September 2003



the cable is still accurate and complete. Once reviewed and revised as necessary, the cable should be
sent to all Commercial Service overseas posts, with informational copies to all ambassadors and deputy
chiefs of mission. Thereafter, the guidelines should be resent to the posts annually.


Additionally, CS Greece should adhere to the USG advocacy guidelines and not advocate on behalf of
any client bidding on a specific tender who has not submitted the required questionnaire and antibribery
agreement to the Advocacy Center.




In responding to our draft report, the Acting Director General stated that staff from the Office of
International Operations met with Advocacy Center officials to discuss the need to send out the
advocacy guidelines annually. Instead, they decided to post the guidelines on the Commercial Service’s
Intranet (Our Place) for easy access and reference by the posts. Officers were informed of the posting,
which was effective August 28, 2003. Further, CS Greece has established procedures to ensure that
the advocacy questionnaire and antibribery agreement are submitted to the Advocacy Center by the
U.S. firm. The Commercial Service’s actions meet the intent of our recommendations.

C.       Safety concern needs to be addressed

We reviewed CS Greece’s office space and the building in which it is housed from a safety perspective.
 During the first week of our inspection we saw just one fire extinguisher in the CS office space. During
the second week, when we went to check the expiration date on that extinguisher, we found that six
additional extinguishers had appeared. Three of the total inventory did not have current maintenance
tags, had not been serviced within the timeframes recommended by the National Fire Protection
Association (NFPA),8 and had expiration dates of January 2000, August 1999, and February 1990,
respectively. NFPA also requires extinguishers to be mounted, located, and identified so as to be
readily visible and accessible. At the post, they were randomly placed on the floor, either under furniture
or off in a corner.

         The Foreign Affairs Manual (6 FAM 785, Exhibit 785.2) states that (1) portable fire
         extinguishers are to be placed in the corridors of occupied buildings at a maximum distance of
         75 feet from any point on the floor, and that (2) carbon dioxide extinguishers must be used in
         computer rooms and pressurized water extinguishers in storage areas. The 75-foot rule was not
         violated. However, the computer room and storage area did not have the required types of
         extinguishers.

8
  National Fire Protection Association, 2002. Standard for Portable Fire Extinguishers (Standard 10). The servicing
timeframes vary depending on the type of extinguisher (dry chemical, carbon dioxide, or pressurized water).
                                                         10

U.S. Department of Commerce                                                          Final Report IPE-15804

Office of Inspector General                                                                  September 2003





The building where the Commercial Service is located is under the control of the State Department, and
CS Greece is merely a tenant. Therefore, State is responsible for fixing this safety problem.9 When we
raised our concerns with State’s general services officer in the embassy, he informed us that the
embassy’s safety officer had ended his assignment several months prior to our visit and was not
expected to be replaced until June 2003. In the meantime, the general services officer is handling the
safety officer’s duties in addition to his own. He professed no knowledge of the safety issues in the
annex building, but stated that he would correct any problems reported by the Commercial Service.

Recommendation. CS Greece should work with the general services officer and/or the post’s new
safety officer, when assigned, to ensure that the office’s fire extinguishers meet all appropriate standards.




The Commercial Service’s response to our draft report stated that CS Greece, working with the general
services officer, completed a review of the fire extinguishers assigned to its office. Expired units were
replaced. These actions meet the intent of our recommendation. However, we urge the Commercial
Service to ensure that the fire extinguishers are also properly mounted, located, and the correct type for
the location (carbon dioxide in the computer room and pressurized water in the storage room).




9
    Foreign Affairs Manual (6 FAM 782.1 and 782.3).
                                                      11

U.S. Department of Commerce                                                               Final Report IPE-15804

Office of Inspector General                                                                       September 2003



II.	    Most CS Greece Clients are Satisfied, but Timeliness of Services, Market Research
        Production, and Export Success Reporting Need Improvement

CS Greece is a full-service post, although most of its clients order core services only. While Greece is
not one of the largest export markets for the United States, the country offers several important export
opportunities, particularly in defense, and most recently, on 2004 Olympics-related projects. Because
of strong competition from European Union countries, CS Greece must provide timely advocacy to
support U.S. bidders. It has been highly praised for its assistance to U.S. defense suppliers bidding on
contracts in Greece. It has also done an excellent job of supporting U.S. firms on Olympic tenders. In
addition, many consider CS Greece’s close working relationship with the U.S. Defense Department’s
Office of Defense Cooperation and the embassy’s Defense Attaché’s office in support of U.S. bidders
as a model of teamwork and cooperation. CS Greece is not the lead in any Showcase Europe10
sectors, but actively participates in the energy and information technologies sectors, as well as several
others.

We queried U.S. businesses, the American-Hellenic Chamber of Commerce (AmCham), U.S.-Greece
Business Council, and other groups that work to expand U.S. trade (i.e., “multipliers”) about the post’s
efforts to support U.S. commercial interests in Greece. Based on those contacts, we determined that
CS Greece has an excellent reputation for being responsive and proactive. Most companies queried,
both large and small, knew the SCO by name and praised him for his dedication and responsiveness.
They gave high marks as well to several FSNs for their government contacts and industry knowledge,
singling out those with responsibilities in the defense, major projects, building materials, and architecture
and engineering sectors. AmCham also had praise for several FSNs and particularly the SCO, with
whom it has an excellent working relationship.

To gauge customer satisfaction with CS Greece’s specific offerings, we surveyed clients who ordered
62 core products and services from fiscal year 2001 to 2003. Seventeen (27 percent) of those
contacted responded, and most (82.4 percent) were satisfied to very satisfied with the post’s services.
Single company promotions (SCPs) received the highest satisfaction rating (see Table 1). Only the
International Partnership Search (IPS) received a low rating, with one customer reporting dissatisfaction
because the firms identified by the post as possible partners were not interested in doing business with
his company.




10
  Showcase Europe is designed to help U.S. firms more effectively exploit commercial opportunities in the EU
regional market and emerging markets of Eastern Europe. The initiative focuses on eight market sectors, which
appear to offer the best prospects for U.S. firms.
                                                        12

 U.S. Department of Commerce                                                          Final Report IPE-15804

 Office of Inspector General                                                                  September 2003



 Table 1: Customer Satisfaction with CS Greece
 CS Product Very         Satisfied Unsure      Dissatisfie                Very            Products
              Satisfied                        d                          Dissatisfie     Ordered
                                                                          d               FY 01-03
 ICP                  1             4             2                                          28
 IPS                                                            1                             4
 Gold Key             3             1                                                        23
 SCP                  4             1                                                         7
 TOTALS               8             6             2             1               0            62
Source: OIG Customer Survey


 In sum, CS Greece’s performance is for the most part commendable. However, we did find several 

 areas that weaken its effectiveness, namely, untimely delivery of certain core products and services, 

 inadequate coverage of market research, and, in particular, incomplete export success records and 

 inaccurate reporting of export successes. 


 A.      Delivery of some products and services is untimely

 The CS Operations Manual specifies that International Company Profiles (ICPs) must be completed
 within 10 business days of receipt of the client’s payment, and IPS reports must be completed within 15
 business days of payment. Using these criteria, we reviewed delivery dates for products and services
 ordered during fiscal years 2001, 2002, and 2003 (up to May 2003) and found that the post was late
 delivering three ICPs (11 percent of the total ordered) and three IPSs (75 percent of the total). One
 ICP was delinquent by 4 months (89 days), which the post attributed to a 2½ month delay between the
 time the client paid for the service and the time the official request was received. However, even
 counting from the official request date, the ICP was still delivered 37 business days beyond the required
 10-day turnaround.

 The only IPS delivered on time during the period we reviewed was rated as poor by the customer (see
 Table 1). The Commercial Service had to refund the client’s payment for one of the three late products
 because the report was delivered to the client nearly two months late.

 The Commercial Service recently extended turnaround time to 30 days for IPSs ordered after March
 31, 2003—a change that did not apply to any of the products we identified. But even if it did, two of
 the three IPS reports would still have been late, by 34 days and 24 days respectively. Consistently late
 delivery may be one reason why the IPS is the least successful offering in CS Greece’s lineup of core
 products and services.

 For half the late products we identified, the post attributed the untimeliness to reduced staffing levels

                                                      13

U.S. Department of Commerce                                                               Final Report IPE-15804

Office of Inspector General                                                                       September 2003



during periods of personal leave and to miscommunication among office staff. To improve customer
satisfaction—an ITA performance goal in the Department’s FY 2003 annual performance plan—the
post must provide customers with products and services in a timely manner and within the timeframes
specified in the Operations Manual, regardless of personal leave issues, holidays, and other factors.
Achieving this goal may require post managers to designate alternates or backups to handle workload
for staff on leave, or to reallocate resources when staff cannot perform their core duties because they
are handling time-sensitive events, such as trade shows or other events.

  Table 2: Delivery of Products and Services, FY 2001 to FY 2003 (Thru May 2003)
            Product                    Business Days                        Post’s Explanations
                                             Late
   ICP
   Client 1                                    14            Christmas Holiday contributed to delay.
   Client 2                           4 months [89           Request was received 2 ½ months after the
                                      days] [37 per          company paid. (Using the post’s reference
                                      post]                  date, the product was still late by 37 business
                                                             days.) Personal leave and staff work on three
                                                             trade shows also contributed to the delay.
   Client 3                                    15            Additional research was conducted.
   IPS
   Client 1                           49 (34 under           Post had difficulties identifying firms and the
                                      revised                Christmas holiday intervened.
                                      standard*)
   Client 2                           47 [4 per post] Post received the firm’s marketing materials
                                      (17 under              more than 1 month after the IPS was ordered.
                                      revised                 (Using post’s reference date, the IPS was still
                                      standard*)             late by 4 business days.)
   Client 3                           39 (24 under           Miscommunication among office staff.
                                      revised                Customer’s money was refunded.
                                      standard*)
   *We include the days late under the new standard for comparative purposes.
 Source: E-Menu, CS Operations Manual


Recommendations : The SCO should track progress toward delivery dates and work with the CS
Greece staff to identify the reasons for late product delivery. Develop an action plan to improve
timeliness of and accountability for post products and services. Further, the regional director and his
staff should provide adequate oversight to the post to ensure that products and services are delivered in
a timely manner per the CS Operations Manual. The regional director’s staff should also monitor the
status of the post’s progress in improving timeliness.
                                                        14

U.S. Department of Commerce                                                             Final Report IPE-15804

Office of Inspector General                                                                     September 2003





In responding to our draft report, the Commercial Service indicated that CS Greece will establish a
“comprehensive tracking method to ensure that products and services are completed in a timely
manner.” The method will include adding product due dates to post’s calendar and requiring weekly
progress reports on products and services. They add that in the event of a delay in delivering a product,
the post will inform the U.S. Export Assistance Center they are working with and the client in writing of
the delay, the reasons for the delay, and the new completion date. The proposed actions meet the intent
of our recommendation.

With regard to post oversight, the Acting Assistant Secretary and Director General of the Commercial
Service stated that the Regional Director for Europe has asked his country manager to review post’s
products and services on a quarterly basis and that a status report will be generated for his review each
quarter beginning in FY 2004. In addition, the Office of International Operations (OIO) has requested
that due dates for specific products and services be posted on the Commercial Service’s “e-menu”
internet-based management system. The Commercial Service’s actions meet the intent of our
recommendations.

B.      Market research reporting appears suitable, but production may be low

ISA reporting appears low when compared with similarly sized posts.

CS Greece’s production of Industry Sector Analyses (ISAs) fell by 50 percent in FY 2003. The post
committed to producing only three ISAs, which is fewer than the ISA commitments of other similarly
sized posts.11 CS Poland committed to producing 22 ISAs, CS Portugal and CS Hungary 8 ISAs, and
CS Czech Republic produced 4.




11
 The Commercial Service suggested that we compare CS Greece’s performance with the similarly sized posts of
Portugal, Poland, Hungary, and the Czech Republic.
                                                      15

U.S. Department of Commerce                                                             Final Report IPE-15804

Office of Inspector General                                                                     September 2003





Figure 1: ISA Production by CS Greece and Posts of Similar Size (FY 2001-2003)


                                 ISA Production By Country


                  25
                            21                          22
                  20                      19
                                                                                   Greece
                  15                                                               Portugal
                               11
                         9           10                                            Poland
                  10                           87       8 8
                        6 6          6                                             Hungary
                    5                               3          4                   Czech

                    0
                        FY 2001 FY 2002 FY 2003

Source: E-Menu

We also found that during the past 3 years, the post did not issue ISAs on a key sector identified as a
“best prospect”12—environmental engineering services, which is listed as the seventh most promising
export market for U.S. exporters. The CS Operations Manual states that “ISA titles should draw
primarily from the ‘best-prospect’ sectors identified in the posts’ annual CCGs.” If CS Greece believes
that environmental engineering services is no longer a key market opportunity, it should delete this sector
from the best prospects list in the CCG. If it remains a best prospect, the post should provide sufficient
related market information per the Operations Manual.

IMI reporting has been strong, but has dropped significantly.

CS Greece produced a post record of 191 International Market Insights (IMIs) reports in FY 2001

12
  The list of best prospects—derived from country commercial guides (CCGs)—identifies the industry sectors that
appear to offer the best market opportunities for U.S. businesses.
                                                         16

U.S. Department of Commerce                                                              Final Report IPE-15804

Office of Inspector General                                                                      September 2003



and 179 IMIs in FY 2002. However, for the first 8 months of the current fiscal year, production has
dropped significantly. The post has produced only 11 IMIs. According to the SCO, the Management
and Program Review team,13 which conducted an internal review of post operations in April 2002,
indicated that the time spent by post to draft IMIs would be better spent on advocacy efforts. As a
result, the post reduced its production.
Compared with other similarly sized posts, the Czech Republic produced 28 IMIs while Portugal
produced 6 IMIs and Poland and Hungary produced only 1 IMI in the same time period. CS Greece’s
production of IMIs compares favorably to these posts.

The CS Operations Manual does not prescribe the frequency or number of IMIs to be submitted.
However, it does maintain that a principal activity of the post is “to develop marketing and commercial
intelligence for dissemination to the U.S. business community and management of commercial libraries.”
IMIs and ISAs provide such information, and many small- to medium-sized companies rely on these
products. A benchmark FY 2002 publication entitled “Report Card on Trade II,” developed by the
Trade Promotion Coordinating Committee (TPCC)14 noted that “basic information on market
opportunities abroad remains among the most important service to exporters…,” and that exporters
rely on the government more than any other source for market information.

To further the dissemination of such market information, we note that one of the goals of the
International Trade Administration’s FY 2003 annual performance plan under the Government
Performance and Results Act (GPRA) is to focus on e-commerce to further U.S. exports through the
web-portal “Export.Gov.” One key strategy of this initiative is to help small businesses use the Internet
to find suitable markets overseas. However, the web-portal cannot be successful without web content,
such as IMIs and ISAs. Finally, trade specialists in U.S. Export Assistance Centers use IMIs and ISAs
to counsel small- and medium-sized companies that are exporting for the first time, or to generate
interest in new overseas markets among clients. Without sufficient market information, particularly for
new to export firms, this task will be difficult.

Recommendations: The Commercial Service should determine the appropriate level of ISA and IMI
production for CS Greece so as to ensure that the public mandate for providing marketing and
commercial intelligence to U.S. businesses is satisfied. In addition, the SCO should determine whether
the environmental engineering sector is still a viable best prospect. If so, make it an ISA topic per the
Operations Manual.




13
 See the Background section, beginning on page 3, for a description of a Management and Program Review.
14
 The TPCC, chaired by the Secretary of Commerce, develops the “National Export Strategy,” which is the
Administration’s trade promotion agenda. The TPCC released its benchmark report entitled “Report Card on Trade II:
Assessing the Effectiveness of U.S. Government Support to Small and Midsize Exporters” on June 12, 2002.
                                                       17

U.S. Department of Commerce                                                               Final Report IPE-15804

Office of Inspector General                                                                       September 2003





In responding to our draft report, the Acting Assistant Secretary and Director General of the
Commercial Service indicated that there is “no hard and fast rule on the production of ISAs and IMIs in
the Operations Manual.” However, he indicated that CS Greece has agreed to identify a target number
of ISAs and IMIs on their best prospects list to be done in 2004. In addition, he indicated that the
Commercial Service is conducting a thorough review of its market research products, including the ISA,
to determine if these products are still meeting the needs of its clients. If not, they will be replaced. The
Commercial Service’s actions meet the intent of our recommendations.

On ISA topics, the Commercial Service indicated that the SCO has determined that the environmental
engineering sector is no longer considered a best prospect in the Country Commercial Guide. As such,
an ISA on the topic will not be developed. The actions taken meet the intent of our recommendations.


C.	     Export success reporting has increased significantly, but accuracy and management
        oversight are needed

CS Greece’s export successes in FY 2001 increased by 288 percent over the previous fiscal year in
large part because of the leadership of the current SCO, who came on board at the end of fiscal year
2000. Export successes increased by 61 percent in FY 2002, and the post’s goal for FY 2003 is
another 60 percent increase (or 80 export successes).

        Figure 2: CS Greece Export Successes (FY 1999-FY 2003)

                           Up 288% in FY 2001 and 61% in FY 2002



              60                                                57
              50                                      50
                                                                                 FY 1999
              40
                                                                                 FY2000
                                           31
              30                                                                 FY 2001
              20                                                                 FY 2002
              10                  8                                              FY 2003
                       4
                0
                    FY 1999   FY2000    FY 2001    FY 2002 FY 2003


        Source: E-Menu. Information for FY 2003 is incomplete. At the time we did our
        review of export successes, there were only 28 reported. By the time of the issuance
                                                        18
U.S. Department of Commerce                                                                       Final Report IPE-15804

Office of Inspector General                                                                               September 2003



         of this report in draft, an additional 29 successes were reported , for the total in this 

         chart of 57 in FY 2003. 


Despite increases, the number of export successes remains on the low end.

CS Greece has the largest U.S. export market of similarly sized posts with which it was compared in
our review, yet it remains one of the lowest producers of export successes for the past four fiscal years
(excluding 2003). (See Figure 3).

Figure 3: Export Successes Reported by CS Greece and Posts of Similar Size (FY 99-03)


      120                                       112               111
                                                            106
      100                                                                8986 91
                                            85
        80                                                                                 Greece
                                                       65     66
                                                                             61            Portugal
        60                      53                                      57
                                                         50
                           43                      47 50                                   Poland
                   39                 42
        40    35                                                                           Hungary
                                           31
                                                                                           Czech
        20
                        10 8
             4           0        2
         0
                 1999          2000             2001        2002         2003


Source: E-Menu. Information for FY 2003 is incomplete. At the time we did our review of
export successes, there were only 28 reported. By the time of the issuance of this report in draft,
an additional 29 successes were reported, for the total in this chart of 57 in FY 2003.

Portugal, Hungary, and the Czech Republic—posts that have fewer officers and FSN staff, smaller U.S. 

export markets, and smaller economies—are all outperforming CS Greece. CS Portugal has twice the 

number of export successes as Greece despite its smaller staff (see 

Table 3). Portugal and Greece have roughly the same size economy, per capita gross national income 

(GNI), and population though the U.S. export market in Greece is 23 percent larger than in Portugal. 

Both countries are members of the European Union. 


One factor may be that staff at the post is not aggressively “harvesting” export successes (following up 

on new export success leads from post’s earlier efforts.) During our review of export successes, we 

spoke with several U.S. companies that had additional export successes based on the post’s earlier 

work, which had not been captured by the post. 

                                                              19

U.S. Department of Commerce                                                              Final Report IPE-15804

Office of Inspector General                                                                      September 2003





Table 3: CS Greece’s Performance vs. Similarly Sized Posts
Country     Export       Staffing         US         GNI        GNI       Population      ORAM         Cost-
            Successe     (Commercial      Exports    2001       Per       2001            (Quintile)   Benefit
            s 2002       Officers/FSNs    2002       (Billion   Capital   (Million)                    (Quintile)
            (%                            (Million   $)         2001
            change                        $)                    ($)
            from
            2001)
Greece       50(+60)          2/8          1,123      124.6     11,780         10.6           3rd            2nd
Portugal     106(+24)         1/6           863       108.5     10,670         10.2           3rd            2nd
Poland        50(-55)         3/7           687       163.9     4,240          38.7           2nd            3rd
Czech       111 (+70)         2/5           654        54.1     5,270          10.3           4th            1st
Republic
Hungary      66(+40)          2/6           688        48.9      4,800         10.2           4th            3rd
Source: E-Menu; CS Staffing Pattern (2/28/03); CS Performance Data, 2003; US Census; World Bank Statistics

Recommendations: The SCO should work with the CS Greece staff to identify sources of export
successes that have not been considered. In addition, the regional director should counsel the SCO on
best practices used by other posts to maximize the capture of export successes. The regional director
and his staff should also closely monitor CS Greece’s progress toward improving its export success
track record.




In response to our draft report, the Commercial Service stated that the commercial officers at the post
would work closely with post staff to identify sources of export successes that may not have been
considered. Specifically, CS Greece “will implement a more extensive follow-up of post
sponsored/assisted trade expositions and IBPs, with e-mails to participants at 3, 6, and 12 month
intervals requesting results from the event.” The Commercial Service also indicated that the Regional
Director conducts quarterly conference calls with SCOs to review progress on export successes. He
spoke to the SCO in Greece in August 2003, and reiterated to him the need to increase export
successes and ensure the accuracy and quality of export successes. Finally, the Commercial Service

                                                       20

U.S. Department of Commerce                                                        Final Report IPE-15804

Office of Inspector General                                                                September 2003



indicated that the issue of export successes was discussed at their Worldwide SCO conference held in
Reston, Virginia in May 2003. The actions proposed above meet the intent of our recommendations.

Export success records need better review and some are incomplete

Our review revealed that 35 percent of export success records from fiscal years 2002 and 2003 have
empty e-mail address fields; 6 percent did not contain fax numbers; and a handful lacked both. Some
records that listed U.S. representatives located in Greece as the primary company contact had
incomplete phone numbers. Without proper contact information, managers at headquarters cannot
easily verify export successes. In addition, the CS contractor hired to verify export successes cannot
do her job without proper contact information for each export success reported.
Several CS Greece staff attributed the missing e-mail addresses to the fact that many Greek companies
do not use e-mail and are only now beginning to embrace the Internet. However, the post primarily
counsels U.S. companies, which have e-mail addresses almost without exception. We also found one
export success, which listed the chief executive officer of a major Fortune 500 company as the main
contact for an export success. This is not a best practice because of the difficulty in contacting such
persons and the likelihood that such persons might not know about the success in question. Contact
persons should be on the working level and be knowledgeable about post’s role in assisting the
company. We also found one export success record with the U.S. export content in euro dollars.

The large number of incomplete export success records and discrepancies in record fields indicates that
the SCO and junior officer are not carefully reviewing them and that the regional director and his staff
may be not performing their oversight responsibilities. The CS Operations Manual states that “SCOs
are responsible for providing quality control for performance reporting.” In addition, it states under
Washington responsibilities that “office directors spot check export success reports.”

One factor for the large number of incomplete export success records may be the post’s use of interns
to enter export success data into the Client Management System (CMS) database and e-Menu. Interns
are used to do this work, in part, because of a lack of clerical support at post. While the use of interns
is not an issue, inadequate supervision of their work is. If interns are used, they should be properly
trained and their work should be closely reviewed.

Recommendations: The SCO needs to work with the junior officer and staff to ensure that all staff
properly complete export success records. The regional director and his staff should work with the
SCO to ensure this area receives appropriate oversight.




In replying to our draft report, the Commercial Service indicated that the SCO will “highlight the

                                                   21

U.S. Department of Commerce                                                                   Final Report IPE-15804

Office of Inspector General                                                                           September 2003



importance of complete export success records” with post staff and the junior officer. He will also
randomly review export success records prior to approval to ensure they meet reporting requirements.
We note that we recommended that the SCO review and approve each export success (see
recommendation in next section).

To ensure the proper completion of export success records, the Acting Director General stated that the
Commercial Service has “thoroughly reviewed its success story guidance and will be issuing shortly
new, more specific, guidelines and changes to the export success format in e-menu to be implemented in
FY 04.” Further, he states that the Regional Director has conducted a conference call with the post and
the contractor who reviews export successes to ensure that due diligence is conducted during the review
of export successes. The Regional Director will also provide guidance to the junior officer and the staff
on proper follow-up of export successes.
The actions proposed above meet the intent of our recommendations with the exception of the SCO
randomly reviewing export successes. We do not believe that a random review is sufficient to ensure
the accuracy of export successes. We do not see how the SCO can ensure the accuracy of the export
success reports without reviewing all of them. We request that the Commercial Service address this
issue in its revised action plan.

Some export successes for which the post claims credit are problematic.

Our survey of 57 selected export successes from the universe of 74 claimed by CS Greece in fiscal
years 2002 and 2003 revealed that 17 (nearly 30 percent of the sample) do not meet one or more
guidelines in the CS Operations Manual. The CS Operations Manual describes export success as:

•	 an actual verifiable export sale–shipment of good or delivery of service;.
•	 the legally binding signing of an agreement, including agent/distributor, representation, joint
   venture, strategic alliance, licensing, and franchising or the signing of a contract by the
   client, with sales expected in the future;15
•	 resolution of a trade complaint or dispute on behalf of the client–avoiding harm or loss; or
•	 removal of a market access barrier, including standards, regulations, testing and
   certification–opening a market for U.S. firms.

The manual further states that “projected or anticipated sales, etc., are not allowed on the dollar value
line of the report as the sales have not yet been consummated,” and “the amount provided on the value
line of the report should only reflect the U.S. export value/component of the product/service sold.”

Of the 17 problematic export successes we identified, 5 involved anticipated sales, 6 overstated U.S.

15
  The CS Operations Manual goes on to state that “the signing of a contract and an export sale immediately
thereafter (e.g., within three months), related to the same contract, must be reported as a single Export Success.”
                                                          22

U.S. Department of Commerce                                                        Final Report IPE-15804

Office of Inspector General                                                                September 2003



content values, and 1 had no U.S. export content at all. Particularly disturbing was our finding that 5 of
the 17 did not occur, according to the companies contacted—despite CS requirements that all
successes reported are “actual” and “verifiable.” We note that although the regional director had
instructed his staff to work with the post to ensure that all export successes
reported in fiscal year 2003 were properly reviewed and vetted (4 export successes were deleted as a
result of this exercise), 3 of the 5 that did not occur were recorded in FY 2003.

 Anticipated or Expected Sales: The five export successes involving anticipated sales are as
follows:




Fiscal Year 2003

    •	 CS Greece reported an export success of $600,000 for a U.S. company that indicated there
       were “commitments,” but that the goods had not been shipped. In addition, the company
       indicated that the goods will be sourced from its European operations, not from the United
       States, meaning that there is no U.S. content.

Fiscal Year 2002

    •	 The post reported a $600,000 export success based on a contract, which has not yet been
       signed, according to the U.S. company. The company indicates that negotiations on the
       contract are still on-going and the company hopes that they can be concluded by the end of
       2003. The post disagreed with our finding, and indicated that the export success was valid,
       according to the Greek partner in the venture. However, the principal of the U.S. partner
       indicated very clearly to us that no contract had been signed. While post may report the
       formation of the joint venture company as an export success, it may not report the $600,000
       contract until it is signed. When we asked for details of the contract, the post learned from the
       Greek partner that no contract with the U.S. company exists at this time.

    •	 The post reported three export successes – in the amounts of $1 million, $350,000, and $1
       million – all for the same company. The firm – though very pleased with the support it received
       from post – indicated that there were “commitments” from customers, but that no goods had
       been shipped. In addition, the company indicated that the goods will be sourced from its
       European operations, not from the United States.

Overstated Values of U.S. Content Values: The seven instances, in which the post overstated U.S.
content in export successes are as follows:

                                                    23

U.S. Department of Commerce                                                         Final Report IPE-15804

Office of Inspector General                                                                 September 2003





Fiscal Year 2003

   •	 The post reported an export success of $60 million, but the U.S. company indicated that the
      contract was worth only $47 million. The post concurred with our finding.

   •	 On a $250,000 export success claimed by post, the U.S. company indicated that it only
      received a 20 percent royalty of the full amount of the contract. The post concurred with

       our finding and indicated that in future export successes, it will only claim the royalty amount.




Fiscal Year 2002

   •	 The post reported a $9 million export success when it was valued at $6 million of which only 91
      percent had U.S. content. Post concurred with our finding and indicated that there was a “mix­
      up” on the U.S. content value because the company had secured several orders for its product.

   •	 On an $8 million export success, the post claimed the full value when only 10 percent of the
      work was going to a U.S. contractor. The rest of the contract was subcontracted out to
      European firms. Post concurred with this finding and indicated that “the low U.S. dollar content
      on this project is notable, as it was not disclosed as such by the U.S. firm.” However, the post
      bears the onus for obtaining accurate information from U.S. companies that meets the
      requirements of the CS Operations Manual and did not in this case. The manual’s guidelines
      apply to the post, not to its client firms.

   •	 On two export successes valued at $350,000 and $325,000 respectively, the post claimed the
      full amount of these transactions though the U.S. company indicated that it received only 20
      percent as a royalty. The post concurred with our finding and indicated that, when applicable in
      the future, it will claim only the royalty fees as the export success amount.

   •	 The post claimed an export success of $10,000 on a transaction that involved no U.S.
      content—the U.S. firm indicated that all of the products in question were manufactured in
      Taiwan, adding that little of the material and few of the parts are ever sourced from the United
      States. The post concurred with our finding, but said that the U.S. company never indicated the
      products were not U.S.-made. It added that even if the items were manufactured in Taiwan,
      the sale of the items “support jobs in the United States.” We do not dispute this point.
      However, the issue is whether the U.S. export content listed in the export success meets the

                                                   24

U.S. Department of Commerce                                                                 Final Report IPE-15804

Office of Inspector General                                                                         September 2003



         guidelines of the CS Operations Manual. In this case, it does not. And we reiterate that the
         post is responsible for getting the required information from U.S. firms regarding export
         successes, as the firms do not know what details are needed.

Export Successes That Did Not Occur: The 5 claimed export successes that did not occur were
reported as valid export successes because of the post’s failure to conduct appropriate due diligence on
these cases.

Fiscal Year 2003

     •	 The post reported a $90 million contract to upgrade military aircraft as an export success. The
        contract represents more than 50 percent of CS Greece’s export success value reported for the
        period of fiscal year 2003 that we reviewed.16 We contacted the U.S. company indicated in the
        export success and were told that it was not involved in the contract, is not in the business of
        upgrading military aircraft, and currently has no contracts of this size in Greece. The post
        disagreed with our finding and referred us to another company and a different contact person
        from the one listed in the export success record. We learned from this second contact that her
        company did have the contract in question; the firm, however, was Canadian and had been
        acquired in January 2002 by the U.S. firm the post identified in the export success record. The
        Canadian company strongly doubted that the post was ever involved with the contract because
        the project had been awarded in June 2001, prior to its acquisition by the U.S. firm. It added
        that any advocacy efforts on its behalf would have come from the Canadian embassy, and that
        at the time of the tender, a U.S. company was bidding on the contract and probably received
        assistance from the post. Finally, the Canadian company indicated the project only had 35 to
        40 percent U.S. content. When we asked the post for more details regarding the contract, we
        were referred to yet a third company—a U.S. subcontractor to the Canadian company. We
        did not contact the subcontractor because the information we had gathered from both the
        Canadian company and the post was by now so far removed from the original report—different
        company, different contact person, different U.S. export content—that we could only conclude
        the export success was not a valid claim. If post had assisted one of the companies mentioned,
        it should at least have known the correct company and contact person, and have had some idea
        of the project size and export content. We note that this is one of the sloppiest export
        successes we have reviewed.

     •	 On a $50,000 export success claimed by the post, the company maintained that it has not had
        any sales to Greece since 1999 and has neither requested nor received assistance from the post.
         The post disagreed with this finding and referred us to a June 2001 export success reported by

16
 For the period from October 1, 2002, to February 28, 2003, CS Greece reported nearly $169 million (U.S. content)
worth of export successes.
                                                         25

U.S. Department of Commerce                                                      Final Report IPE-15804

Office of Inspector General                                                              September 2003



       the Birmingham U.S. Export Assistance Center (USEAC), which reported that the U.S.
       company had made a sale in Greece because of its ad in Commercial News USA (CNUSA),
       which was distributed in Greece to potential buyers by the post. While posts may count as
       export successes any contracts or sales generated from CNUSA, the U.S. company in this case
       claims no sales to Greece for FY 2003 or any year since 1999. The Birmingham USEAC may
       have made its report in error. To avoid discrepancies, export successes should always be
       verified with the U.S. exporter.

   •	 The post claimed a $25,000 export success for a licensing agreement that, according to the
      company involved, has been in place since 1997. The post disagreed with our finding,
      indicating that the licensee was a long-time client of CS Greece and that “in many cases, the
      U.S. firm may not have a full understanding of how the Commercial Service assists local firms
      on their behalf.” We agree that export orders can be facilitated without a U.S. company’s
      knowledge. However in this case, the post stated that it had provided the licensee with
      information and assistance so she could attend a U.S. trade show, “Licensing 2001
      International,” and as a result of attending the show, her company signed the agreement with the
      U.S. company. The U.S. firm contends that the licensing agreement had been in place since
      1997 and had not been renewed since 2000. Given the
      company’s comments, we must conclude that the post’s claim of this export success was not
      valid.

Fiscal Year 2002

   •   The post reported that a U.S. firm signed a distributor agreement with a Greek vendor. The
       U.S. company told us that the agreement was verbal, and that it only signs a distributor
       agreement with vendors after a 1-year trial period. At the time of our review, the Greek vendor
       had yet to order any products from the U.S. company, though it had received samples and
       brochures some time earlier. The post agreed with these findings and indicated that the Greek
       vendor had reported the signing of the agreement. However, the post failed to verify this
       information with the U.S. firm. We emphasize that although Greek importers may provide
       important leads for posts on export successes, all such information must be verified with the
       U.S. companies involved.

   •	 The post reported an export success for a U.S. fast-food chain, which the post claimed had
      successfully won a bid to open a restaurant on a local college campus. However, the U.S.
      company stated that it received little support from CS Greece and actually lost the bid to a
      competitor. The post, claiming “surprise” at our finding, stated that it was told that the U.S.
      company had won the bid. Had the post checked with the U.S. company, which has a local
      office in Athens, they would have learned that the company had lost the bid.

                                                  26

U.S. Department of Commerce                                                      Final Report IPE-15804

Office of Inspector General                                                              September 2003





Table 4: Problematic Export Successes (Fiscal Years 2002 and 2003)
  Export       Claimed        Actual       Legitimate      Issue                Discrepancy
 Success          ($)           ($)          Export                                  ($)
  Cases                                     Success
                                      FY 2003
      1        600,000           0          Pending      Anticipated               600,000
      2        60 million    47 million       Yes        Overstated                13 million
      3        250,000        50,000          Yes        Overstated                200,000
      4        90 million        0            No          Did not                  90 million
                                                           occur
      5         50,000           0            No          Did not                   50,000
                                                           occur
      6         25,000           0            No          Did not                   25,000
                                                           occur
                                      FY 2002
      7        600,000           0          Pending      Anticipated               600,000
      8         1 million        0          Pending      Anticipated               1 million
      9        350,000           0          Pending      Anticipated               350,000
    10          1 million        0          Pending      Anticipated               1 million
    11          9 million   5.5 million       Yes        Overstated               3.5 million
    12          8 million    800,000          Yes        Overstated               7.2 million
    13         350,000        70,000          Yes        Overstated                280,000
    14         325,000        65,000          Yes        Overstated                260,000
    15          10,000           0            Yes        Overstated                 10,000
                                                          (no US
                                                          content)
    16             0             0            No          Did not                      0
                                                           occur
    17             0             0            No          Did not                      0
                                                           occur
Total          $171.56       $53.485                                              $118.075
                million       million                                              million
Source: E-Menu; CS Client Management System


By reporting projected or anticipated sales, overstated U.S. content amounts, and invalid export
successes—none of which are allowed under CS Operations Manual guidelines—CS Greece
overclaimed the value of export successes in FY 2002 and FY 2003 by $118 million (over 47 percent
of the total $248.8 million in export success value in our sample size). In addition, the $118 million
                                                     27
U.S. Department of Commerce                                                       Final Report IPE-15804

Office of Inspector General                                                               September 2003



discrepancy represents nearly 23 percent of all FY 2002 and FY 2003 export successes, which are
valued at $861.4 million. The discrepancies identified also do not comply with the Federal Data Quality
Act which provides guidelines to ensure data quality. Under the Act, the Department of Commerce
and, subsequently, the International Trade Administration issued guidelines in fiscal year 2002.
According to those guidelines, information provided must be “accurate, reliable, and unbiased.” Finally,
the overclaim of export successes is of particular concern because aggregate export figures are reported
to Congress through testimony and various reports, including the Department’s Annual Performance
Plan.

We believe the discrepancies in export success reporting occurred because 1) post managers were not
carefully reviewing export success records though the CS Operations Manual requires that managers
“ensure that all sales are real and have commercial value”; 2) post staff did not always adhere to CS
Operations Manual guidelines for performance reporting; 3) there was a lack of adequate management
oversight by the Regional Director for Europe and his staff; and 4) the CS contractor may not be doing
an effective job of reviewing export success records.

We note that the regional director did instruct his staff to work with post to review and vet export
successes in FY 2003 though the effort was obviously not fully successful. The Commercial Service has
indicated that it intends to create another regional director position and separate the Europe operations
into Western Europe and Eastern Europe to improve management oversight of European posts. We
concur with this effort.

We also note that the issues we found with CS Greece’s export successes were identical to those raised
in our report on Commercial Service operations in Turkey (Report # IPE-15370, issued March 2003)
and similar to problems noted in our report on CS Italy (Report # IPE-14272, issued March 2002).
The nature and extent of these findings suggest systemic weaknesses in the Commercial Service’s
process for reporting, reviewing, and ensuring the accuracy of export successes; specifically, current
internal controls on the reporting of export successes may not be effective or are not being used
appropriately by managers.

Recommendations: The SCO should review and approve each export success and require
appropriate due diligence in reporting them. He should also ensure that all staff in CS Greece receive
training on export success guidelines. The regional director and his staff should work with the SCO to
incorporate into client follow-up procedures, new office guidelines to ensure that export success records
are verified with the U.S. client and properly recorded. Finally, the Operations Manual should be
revised to explicitly state that all export successes should be verified with the U.S. client.




                                                   28

U.S. Department of Commerce                                                       Final Report IPE-15804

Office of Inspector General                                                               September 2003





In responding to our draft report, the Commercial Service stated that CS Greece “will implement an
extensive review of the export success guidelines with staff” and that post has already adopted follow up
procedures with U.S. firms to ensure the accuracy of export success records. This step includes
requesting the U.S. firm to review the narrative and U.S. export content figures. Further, the Regional
Director will be meeting with the CS contractor who reviews success stories to raise his concerns about
the accuracy of export successes. The actions proposed meet the intent of our recommendations.

In responding to our recommendation on the Operations Manual, the Acting Assistant Secretary and
Director General of the Commercial Service indicated that OIO has an ongoing working group, which is
reviewing CS performance measures, including export success records, and will be issuing new
guidelines. However, we have yet to receive any details of these new guidelines, which were requested
when our final inspection report on Turkey (IPE-15370) was issued. We request that the Commercial
Service provide the OIG with a copy of the new success story guidelines as soon as they are available.




                                                   29

U.S. Department of Commerce                                                                 Final Report IPE-15804

Office of Inspector General                                                                         September 2003



III. 	   Financial and Administrative Operations Are Generally in Good Order, With One
         Minor Exception

Our review of CS Greece’s financial and administrative operations found them to be sound for the most
part: assets were accounted for and properly used; no cash collections are made at post for routine
transactions; collections, inventory, time and attendance records, petty cash, and the budget were all
properly managed. The process for submitting and approving procurement requests appears to be
working well—the only problem we found was the single company promotion mentioned in chapter I
(see page 6). All FSNs were aware of and following the process for requesting short-term contractor
help, including the requirement for obtaining the SCO’s signature of approval on procurement request
forms. Much of the credit for CS Greece’s sound financial management and administrative operations
goes to the administrative FSN, who is extremely knowledgeable about Commercial Service policies
and keeps meticulous records. This FSN is organized, attentive, and seeks guidance from headquarters
when a question arises.

Our follow-up of the financial and administrative issues reported in the April 2002 MPR determined that
the Commercial Service had corrected the weaknesses identified during that review. For example:
    •	 The MPR team noted that some representation fund vouchers did not stipulate nationality on the
        list of guests entertained, as required by the CS Operations Manual. We found that this
        requirement is now being met and that representation fund expenditures were appropriate,
        within guidelines, and fully documented.

     •	 The team recommended that the post keep copies of both the front and back of checks
        collected from clients, instead of only the front, to show that checks were properly endorsed
        and deposited. We verified that the administrative FSN now keeps copies of both sides.

     •	 The reviewers also determined that the SCO’s time and attendance forms were not being
        approved by an authorized official, and recommended that the deputy chief of mission (DCM)
        or other delegated authority provide such approval. The DCM now signs the SCO’s
        timesheets.

CS Greece has also implemented a series of cost-savings suggestions made in March 2002, by the
Commercial Service’s International Cooperative Administrative Support Services (ICASS) specialist.17
 For example, he (and, subsequently, the MPR team) suggested that CS Greece install an international
voice gateway (IVG) line to reduce ICASS costs, which it has done. We also noted that the junior

17
  ICASS is the State Department’s platform for providing administrative services to government agencies overseas
and equitably distributing the costs of those services to the relevant agencies. The services are usually provided by
the State Department’s administrative section in the embassy, which includes offices for personnel matters, budget
and fiscal matters, general services, information management, and security, as well as a medical unit.
                                                         30

U.S. Department of Commerce                                                        Final Report IPE-15804

Office of Inspector General                                                                September 2003



                                      RECOMMENDATIONS


To strengthen CS Greece operations and the management of posts worldwide, our recommendations
are that the Acting Assistant Secretary and Director General of the United States and Foreign
Commercial Service do the following:

(1)	    Work with the Advocacy Center to review the October 2000 cable on implementing the
        advocacy guidelines, ensuring that the information contained in the cable is still accurate and
        complete. Once reviewed and revised as necessary, the cable should be sent to all
        Commercial Service overseas posts, with informational copies to all ambassadors and deputy
        chiefs of mission. Thereafter, the guidelines should be resent to the posts annually (see page 7).


(2)	    Provide adequate oversight to the post to ensure that products and services are delivered in a
        timely manner per the CS Operations Manual. The regional director’s staff should also
        monitor the status of the post’s progress in improving timeliness (see page 12).

(3)	    Determine the appropriate level of ISA and IMI production for CS Greece so as to ensure that
        the public mandate for providing marketing and commercial intelligence to U.S. businesses is
        satisfied (see page 15).

(4)	    Have the regional director counsel the SCO on best practices used by other posts to maximize
        the capture of export successes. In addition, the regional director and his staff should closely
        monitor CS Greece’s progress toward improving its export success track record (see page 18).


(5) 	   Have the regional director work with the SCO to provide appropriate oversight to CS Greece
        to ensure that export success records are completed properly (see page 18).

(6) 	   Work with the SCO to incorporate into client follow-up procedures, new office guidelines to
        ensure that export success records are verified with the U.S. client and properly recorded.
        Revise the Operations Manual to explicitly state that all export successes should be verified
        with the U.S. client (see page 18).

To improve current and future operations of CS Greece, we recommend that the post’s SCO do the
following:




                                                   33

U.S. Department of Commerce                                                        Final Report IPE-15804

Office of Inspector General                                                                September 2003



(1)	    Adhere to the USG advocacy guidelines and not advocate on behalf of any client bidding on a
        specific tender who has not submitted the required questionnaire and antibribery agreement to
        the Advocacy Center (see page 7).

(2)	    Work with the general services officer and/or the post’s new safety officer, when assigned, to
        ensure that the office’s fire extinguishers meet all appropriate standards (see page 10).

(3)	    Track progress toward delivery dates and work with the CS Greece staff to identify the reasons
        for late product delivery. Develop an action plan to improve timeliness of and accountability for
        post products and services (see page 12).

(4)	    Determine whether the environmental engineering sector is still a viable best prospect. If so,
        make it an ISA topic per the Operations Manual (see page 15).

(5)	    Work with the CS Greece staff to identify sources of export successes that have not been
        considered (see page 18).

(6) 	   Review and approve each export success and require appropriate due diligence in reporting
        them. Ensure that all staff in CS Greece receive training on export success guidelines (see page
        18).

(7)	    Work with the junior officer and staff to ensure that all staff properly complete export success
        records (see page 18).

(8) 	   Surplus or reassign the FSN vehicle in Athens, reassign the vehicle in Thessaloniki (see page
        31).




                                                   34

      U.S. Department of Commerce                                                         Final Report IPE-15804

      Office of Inspector General                                                                 September 2003



                                                   APPENDIX A

                Acronyms and Descriptions of Commercial Service Products and Services

CMA          Customized Market Analysis. Assesses how a U.S. firm’s product or service will sell in a given market.

FMR        Flexible Market Research. Customized market research designed to meet the specific needs of clients by
answering questions about a particular market and its receptivity to targeted products and services.

GKS          Gold Key Matching Service. Sets up one-on-one appointments between U.S. clients and potential
             business partners identified and selected by in a targeted export market.

ICP                  International Company Profile . Background information on a prospective agent, distributor, or
             partner with whom a U.S. firm is considering doing business.

IMI                 International Market Insights. Brief reports on specific foreign market conditions and
             upcoming opportunities for U.S. businesses.

IPS          International Partner Search. A service that matches requestors with potential partners to market
             product or service in a given area. Maximum search response time is 15 working days.

ISA          Industry Sector Analysis. Provides industry-specific information on such topics as market
             potential, size, and access; demand trends; competition; regulations; distribution practices; and key
             contacts.

PKS          Platinum Key Service. Provides a firm with ongoing, customized support for a specified timeframe, scope,
             and fee. Services include counseling, as well as assistance in identifying markets, launching products,
             developing project opportunitie s, finding partners, reducing market access barriers, and understanding
             regulatory or technical standards.

IBP                  International Buyer Program. Promotes key U.S. trade shows to international business
             executives, and brings international buyers to these events to meet with U.S. firms.

BuyUSA       A business-to-business web site that connects foreign buyers with qualified U.S. suppliers of goods and
             services (www.buyusa.com).

CNUSA        Commercial News USA. A monthly publication featuring the products and services of
             participating U.S. suppliers. It is distributed to foreign buyers worldwide.




                                                          35

U.S. Department of Commerce                                     Final Report IPE-15804

Office of Inspector General                                             September 2003



                                      APPENDIX B


                              Agency Comments on Draft Report




                                            36

U.S. Department of Commerce         Final Report IPE-15804

Office of Inspector General                 September 2003





                              37

U.S. Department of Commerce         Final Report IPE-15804

Office of Inspector General                 September 2003





                              38

U.S. Department of Commerce         Final Report IPE-15804

Office of Inspector General                 September 2003





                              39

U.S. Department of Commerce         Final Report IPE-15804

Office of Inspector General                 September 2003





                              40

